No:

21=5910

In the
Supreme Court of the United States

CARLOS SAUZO,

*ft rsh ^k* r• •- n
0
• >.

Petitioner,

S

•*.4

vs.

i ES

iii bi w

UNITED STATES OF AMERICA,

FILED
SEP 2 7 2021

Respondent.

OFFICE OF THE CLERK
SUPREME COURT, U.S.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Carlos Sauzo
Register Number 99523-038
FCI McRae
P.O. Drawer 55030
McRae Helena, GA 31055

QUESTIONS PRESENTED FOR REVIEW
Does the Fifth and Sixth Amendment require the lower court to address an
evidentiary hearing when the record before the court is inconclusive as to which
party must be believed.

PARTIES TO THE PROCEEDINGS
IN THE COURT BELOW
In addition to the parties named in the caption of the case, the following
individuals were parties to the case in the Unite States Court of Appeals for the
Fifth Circuit and the United States District Court for the District Court Western
District of Texas.
None of the parties is a company, corporation, or subsidiary of any company or
corporation.

m

TABLE OF CONTENTS
Questions Presented for Review

11

List of Parties to the Proceedings in the Courts Below

in

Table of Contents

IV

Table of Authorities

v

Opinions Below

2

Statement of Jurisdiction

2

Constitutional Provisions, Treaties, Statutes, Rules, and Regulations
Involved................................................................................................

2

Statement of the Case

3

Reasons for Granting the Writ

7

Does the Fifth and Sixth Amendment require the lower court to address an
evidentiary hearing when the record before the court is inconclusive as to
which party must be believed.........................................................................

8

Conclusion

12

Appendix

A-l

IV

TABLE OF AUTHORITIES
Barefoot v. Estelle,
463 U.S. 880 (1983) .......................

8

Brown v. United States,
462 F.2d 681 (5th Cir. 1972).........

10, 11

Freedman v. United States,
588 F.2d 1010 (5th Cir. 1979).......

10

Fuller v. Johnson,
114 F.3d 491 (5th Cir. 1997).........

9

Hill v. Lockhart,
474 U.S. 52, 106 S. Ct. 366. (1985)

10

MillerEl v. Cockrell,
537 U.S. 322-38(2003) ................

8,9

Montgomery v. United States,
469 F.2d 1485 (5th Cir. 1972).......

10

Rosales v. Dretke,
133 F. App'x 135 (5th Cir. 2005) ...

8-9

Slack v. McDaniel,
529 U.S. 473 (2000) ......................

8

Sorto v. Davis,
672 F. App'x 342 (5th Cir. 2016) ...

8

Taylor v. United States,
287 F.3d 658 (7th Cir. 2002).........

10

Tennard v. Dretke,
542 U.S. 274-83 (2004) ................

8

United States v. Sauzo,
768 F. App'x 284 (5th Cir. 2019)

2

United States v. Sauzo,
846 F. App'x 306 (5th Cir. 2021)

2,7

Statutes
28 U.S.C. § 2253

9

28 U.S.C. § 2255

passim

21 U.S.C. § 841

5,6

28 U.S.C. § 1654

2,3

Rules
Rule 10

7,8

Rule 10.1

8

Guidelines
U.S.S.G. § 2D1.1

5

U.S.S.G. §3B1.1

5

U.S.S.G. § 3E1.1

5,6

VI

No:

In the
Supreme Court of the United States

CARLOS SAUZO,
Petitioner,
vs.

UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

Carlos Sauzo, the Petitioner herein, respectfully prays that a writ of certiorari is
issued to review the judgment of the United States Court of Appeals for the First
Circuit, entered in the above-entitled cause.

OPINION BELOW
The opinion of the Court of Appeals for the Fifth Circuit, whose judgment is
herein sought to be reviewed, is unpublished United States v. Sauzo, 846 F. App'x
306 (5th Cir. 2021) was entered on February 6, 2021 and is reprinted in the
separate Appendix A to this petition. The denial of Sauzo’s 28 U.S.C. § 2255 was
entered on April 25, 2019. See, United States v. Sauzo, 768 F. App’x 284 (5th Cir.
2019) and in and is reprinted in the separate Appendix B to this petition
STATEMENT OF JURISDICTION
The Judgment of the Court of Appeals was entered on February 6, 2021.
The Jurisdiction of this Court is invoked under Title 28 U.S.C. Section 1654(a) and
28 U.S.C. Section 1254(1).
CONSTITUTIONAL PROVISIONS, TREATIES,
STATUTES AND RULES INVOLVED
The Fifth Amendment to the Constitution of the United States provides in
relevant part:
No person shall be held to answer for a capital, or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury... nor shall any person
be subject for the same offense to be twice put in jeopardy of life or limb,
nor shall be compelled in any criminal case to be a witness against himself,
nor be deprived of life, liberty, or property, without due process of law....
Id. Fifth Amendment U.S. Constitution
The Sixth Amendment to the Constitution of the United States provides:

2

In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial jury of the State and District wherein the crime
shall have been committed, which District shall have been previously
ascertained by law, and to be informed of the nature and cause of the
accusation, to be confronted with the witness against him; to have
compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
Id. Sixth Amendment U.S. Constitution
Title 28 U.S.C. § 2255 provides in pertinent part:
A prisoner in custody under sentence of a court established by Act of
Congress claiming the right to be released upon the ground that the sentence
was imposed in violation of the Constitution or laws of the United States, or
that the court was without jurisdiction to impose such sentence, or that the
sentence was in excess of the maximum authorized by law, or is otherwise
subject to collateral attack, may move the court which imposed the sentence
to vacate, set aside or correct the sentence.
$ $ $ $ $

Unless the motion and the files and records of the case conclusively show
that the prisoner is entitled to no relief, the court shall cause notice thereof
to be served upon the United States attorney, grant a prompt hearing thereon,
determine the issues and make findings of fact and conclusions of law with
respect thereto.
Id. Title 28 U.S.C. § 2255
STATEMENT OF THE CASE
Sauzo’s conviction in this case arises from his involvement in a large-scale
narcotics organization responsible for smuggling narcotics and illegal drug
proceeds from Mexico through the Laredo, Texas, Port of Entry and transporting
the narcotics to northern parts of the United States, including New York and

3

Boston. An investigation by Homeland Security Investigations (HSI) revealed the
narcotics originated from the Sinaloa Cartel in Mexico. The narcotics
organization’s leader, Jorge Alberto Mojica, utilized tractor trailers, eighteenwheelers, and passenger vehicles with hidden compartments to transport the
narcotics. Mr. Mojica also recruited individuals to serve in various capacities to
assist the operation by packing the drugs in vehicles, smuggling the drugs into
the United States through the Laredo Port of Entry, and delivering the products to
employees of movant Sauzo, a resident of Connecticut. Movant Sauzo, who was
identified as a manager/supervisor of the organization, employed various
individuals to travel south to receive the shipments from Jorge Mojica’s employees
and to transport the narcotics to New York and Boston for distribution. An
approximate total of 19.3 kilograms of heroin, 11.43 kilograms of cocaine, and
between $200,000 and $400,000 in United States currency were transported during
the time frame of the conspiracy charged in this case.
On July 23, 2013, Carlos Sauzo pleaded guilty to trafficking heroin in state
court in Boston, Massachusetts, based on his involvement in the criminal enterprise
described above, and was sentenced to three years and six months of imprisonment
in the Massachusetts Department of Corrections. (ECF No. 458 at 13). On
February 5, 2014, a federal grand jury returned a four-count indictment naming
Carlos Sauzo and ten co-defendants. (ECF No. 3). Count One of the indictment

4

charged Sauzo with conspiracy to distribute and possess with intent to distribute
one kilogram or more of heroin and five kilograms or more of cocaine, in violation
of 21 U.S.C. §§ 841(a)(1), (b)(1)(A), and 846. (Id. at 1-2).
On July 21, 2016, Sauzo was charged by superseding information with
conspiracy to distribute and possess with intent to distribute one hundred grams or
more of heroin, in violation of 21 U.S.C. §§ 841(a)(1), (b)(1)(B), and 846. (ECF
No. 447). Sauzo waived indictment and pleaded guilty to Count One of the
superseding information pursuant to a written Plea Agreement. (ECF Nos. 442,
448, & 449). In exchange for Sauzo’s agreement to plead guilty, the Government
agreed to dismiss any remaining counts against him and recommend a three-level
downward adjustment for acceptance of responsibility at sentencing, and that his
sentence run concurrently with his sentence in the Massachusetts state case. (ECF
No. 442 at 11). The PSR reflected a base offense level of 34, pursuant to U.S.S.G.
§ 2D1.1(c)(3), because Sauzo was responsible for the possession of 11,935 grams
of heroin and 2,982 grams of cocaine, for a total of 12,531.9 kilograms when
converted to their marijuana equivalency. (ECF No. 458 at 9). Three levels were
added pursuant to U.S.S.G. § 3B1.1(b) based on Mr. Sauzo’s role as a
manager or supervisor and because the criminal activity involved five or more
participants or was otherwise extensive. (Id.). Two levels were deducted for
acceptance of responsibility pursuant to U.S.S.G. § 3El.l(a), and one additional

5

level was deducted for acceptance of responsibility pursuant to U.S.S.G. §
3E 1.1(b), resulting in atotal offense level of 34. (Id.). Sauzo was subject to a
statutory mandatory minimum term of imprisonment of 5 years and a maximum
term of 40 years, pursuant to 21 U.S.C. §§ 841(a)(1) and 841(b)(1)(B). (Id.
at 16). Based on a total offense level of 34 and a criminal history category of II,
movant Sauzo’s advisory Guidelines sentencing range was calculated as 168
months to 210 months. (Id.). On July 21, 2016, this Court sentenced Sauzo to a
below-Guidelines sentence of 120 months of imprisonment with credit for time
served while in custody for the federal offense, five years of supervised release,
and a $100 special monetary assessment. (ECF Nos. 460 & 464).
The § 2255 motion is before the Court following remand from the United
States Court of Appeals for the Fifth Circuit. Sauzo filed the § 2255 motion and
affidavit in support on October 10, 2017. (ECF Nos. 485 & 486). Having found
that movant Sauzo waived his preconviction claims and his right to appeal his
sentence or contest it in a § 2255 collateral proceeding by pleading guilty, this
Court denied movant Sauzo’s § 2255 motion prior to service. (ECF No. 498).
Sauzo appealed, and the Fifth Circuit vacated the judgment denying the § 2255
motion and remanded the matter back to the District Court for further proceedings.
(ECF No. 527).
Post remand, the district court denied the claims without the benefit of an

6

evidentiary hearing, although, the affidavits provided by Sauzo and counsel
conflicted with each other. Post remand, the Fifth Circuit denied the request for a
certificate of appealability. United States v. Sauzo, 846 F. App'x 306 (5th Cir.
2021).
REASONS FOR GRANTING THE WRIT
THIS COURT SHOULD ISSUE A WRIT OF CERTIORARI BECAUSE
THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
AND THE DISTRICT COURT HAVE DECIDED A FEDERAL QUESTION
IN A WAY THAT CONFLICTS WITH APPLICABLE DECISIONS OF
THIS COURT
Supreme Court Rule 10 provides in relevant part as follows:
Rule 10
CONSIDERATIONS GOVERNING REVIEW
ON WRIT OF CERTIORARI
(1) A review on writ of certiorari is not a matter of right, but ofjudicial
discretion. A petition for a writ of certiorari will be granted only when
there are special and important reasons therefore. The following, while
neither controlling nor fully measuring the Court’s discretion, indicate
the character of reasons that will be considered:
(a)When a United States court of appeals has rendered a decision
in conflict with the decision of another United States Court of
Appeals on the same matter; or has decided a federal question in
a way in conflict with a state court of last resort; or has so far
departed from the accepted and usual course ofjudicial
proceedings, or sanctioned such a departure by a lower court, as
to call for an exercise of this Court’s power of supervision.
(b)When a ... United States court of appeals has decided an
important question of federal law which has not been, but should
be, settled by this Court, or has decided a federal question in a
way that conflicts with applicable decision of this Court. ...Id.
7

Id. Supreme Court Rule 10.1(a), (c).
QUESTIONS PRESENTED
DOES THE FIFTH AND SIXTH AMENDMENT REQUIRE THE
LOWER COURTS TO ADDRESS AN EVIDENTIARY HEARING
WHEN THE RECORD BEFORE THE COURT IS INCONCLUSIVE
AS TO WHICH PARTY MUST BE BELIEVED.
The instant petition seeks a writ of certiorari because the correctness of the
Circuit Courts’ disposition on the merits of the ineffectiveness claim were at least
“debatable” among jurists of reason. The conflictive nature of the affidavits
between Sauzo and counsel required a hearing. See, Buck v. Davis, 580 U.S. —,
137 S.Ct. 759, 773-75 (2017) (reiterating governing standard for issuance of
COA); Tennardv. Dretke, 542 U.S. 274, 282-83 (2004); MillerEl v. Cockrell, 537
U.S. 322, 335-38 (2003); Slack v. McDaniel, 529 U.S. 473, 484 (2000) (quoting
Barefoot v. Estelle, 463 U.S. 880, 893 (1983)); see also Sorto v. Davis, 672 F.
App'x 342, 346 (5th Cir. 2016) (defendant must demonstrate that "reasonable
jurists could debate whether (or, for that matter, agree that) the petition should
have been resolved differently or that the issues presented were 'adequate to
deserve encouragement to proceed further.’”); see also Rosales v. Dretke, 133 F.
App'x 135, 137 (5th Cir. 2005) (any doubt regarding whether to grant a COA is
resolved in favor of the petitioner, and the severity of the penalty may be

8

considered in making this determination); Fuller v. Johnson, 114 F.3d 491, 495
(5th Cir. 1997).
A COA was required in this case and it was error to not have one granted. To
obtain a COA, the showing of possible error need not be conclusive. Far from it.
As explained by this court in Miller-El, a “claim can be debatable even though
every jurist of reason might agree, after the COA has been granted and the case has
received full consideration, that petitioner will not prevail.” Id. 537 U.S. at 338.
In short, § 2253(c) establishes a low threshold for granting a COA. Buck v. Davis,
137 S.Ct. at 773-75. “We reiterate what we have said before: A ‘court of appeals
should limit its examination [at the COA stage] to a threshold inquiry into the
underlying merit of [the] claims,’ and ask ‘only if the District Court’s decision was
debatable.’” Id. at 774 (bracketed insertions original), quoting Miller-El, 537 U.S.
at 327, 348. In this case, the District Court addressed the merits of the § 2255 but
did not hold a hearing on the conflictive nature of the parties affidavits. Since the
conflictive nature of the affidavits was not resolved, nor addressed by the District
Court, the request for a certificate of appealability should have been granted since
the District Court’s decision “was debatable.’” Buck v. Davis, 137 S.Ct. at 774.
There are two versions of the facts, counsel’s version, and Sauzo’s version. Both
versions contradict each other. The only way to decide which party is to be
believed was via an evidentiary hearing. To merit an evidentiary hearing, all

9

Sauzo needed to allege was that trial counsel’s representation fell below an
objective standard of reasonableness.” Hill v. Lockhart, 474 U.S. 52, 106 S. Ct.
366, 367. (1985). The district court cannot discredit Sauzo’s affidavit merely
because he is incarcerated. See, Taylor v. United States, 287 F.3d 658 (7th Cir.
2002) determined that if the record contains an evidentiary conflict on a material
issue of fact a judge must hold an evidentiary hearing to decide who is telling the
truth. “It is not sound to say that in every conflict between a prisoner and a lawyer,
the lawyer must be believed.” Id.; Freedman v. United States, 588 F.2d 1010 (5th
Cir. 1979) (stating that contested fact issues in a § 2255 case cannot be resolved on
the basis of affidavits); Montgomery v. United States, 469 F.2d 1485 (5th Cir.
1972); Brown v. United States, 462 F.2d 681 (5th Cir. 1972). The issues of the
conflictive affidavits addressed conversations that occurred between counsel and
Sauzo and were therefore not part of the record. What is part of the record is
Sauzo’s plea. A plea that was provided based on misinformation received by
counsel before entering court.
For example, trial counsel’s affidavit stated:
I never told him that he was likely to receive a term of imprisonment in the 4060 month range or that 60 months was the most he was looking at. I knew the
count to which he was pleading guilty carried a mandatory minimum of 60
months, so I never would have told him a sentence of 40-60 months was likely.
Id. (Dkt. 530 at 2-4).
Sauzo’s affidavit stated in substance the opposite:
10

Within 13-days of discussing the discovery, a plea agreement was executed.
This rush scenario supports the allegation, that Sauzo was under the impression
of a 60-month maximum sentence, and based on his jail credit, he would be
“going home in 2 to 6 months after signing the plea agreement.” (Dkt. 486 at
2).
Martinez “just told [him] that he faced a sentence of no more than 60 months
and would receive a 4-year credit on that 60 months,” for time served on
related state charges, meaning he would serve “a little under one year in
Texas” and would be held accountable for at most 100 grams of heroin.3 (Id. at
5,21-23).
Id. (Dkt. 486 at 2).
The question arises, thus the encouragement to proceed further was required, as
to whether the district court was required to hold an evidentiary hearing to
determine which party must be believed in light of the conflictive nature of the
affidavits. The District Court and Circuit Court’s actions requires the granting of a
writ of certiorari.

11

CONCLUSION
Based on the foregoing, this Court should grant this request for a Writ of
Certiorari and order the Court of Appeals for the Fifth Circuit and the District
Court to address the matters of the issues filed herein.
Done this

day °f September 2021.

CarlOTSauzo
Register Number 99523-038
FCI McRae
P.O. Drawer 55030
McRae Helena, GA 31055

12

